OIG Investigative Reports Press Release Detroit, MI., 08/08/2013 - Former Detroit Public Schools Accountant, Teacher Found Guilty Of Fraud And Money Laundering Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Press Release Detroit, MI.  Aug 5,2013 - Former Detroit Public  Schools Accountant, Teacher Found Guilty Of Fraud And Money Laundering Charges
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of MICHIGAN
NEWS
Former Detroit Public  Schools Accountant, Teacher Found Guilty Of Fraud And Money Laundering Charges
FOR IMMEDIATE RELEASE
Aug 5, 2013
Sandra  Campbell, 57 a former Detroit Public Schools contract accountant and School  Board candidate, and her daughter, Domonique Campbell, 38, a Detroit Public  Schools teacher, were convicted today by a federal jury in Detroit on charges  of program fraud conspiracy, money laundering conspiracy and tax charges,  following a five-week jury trial, United States Attorney Barbara L. McQuade  announced today.  The jury returned its  verdict after only one and one half hours of deliberations.
McQuade was joined in the  announcement by Special Agent in Charge Robert D. Foley, III and Special Agent  in Charge, Erick Martinez, Internal Revenue Service, Criminal Investigation.
The evidence presented at trial  established that between 2004 and 2008, Sandra Campbell and Domonique Campbell,  obtained in excess of $530,000.00 from the Detroit Public Schools through a  fraudulent scheme in which orders were placed with the Campbells' sham company  for books and educational materials never provided to the schools.  Sandra Campbell and Domonique Campbell  conspired to launder the fraud proceeds and to defraud the Internal Revenue  Service and failed to report the money they fraudulently obtained from the  Detroit Public Schools as income on their tax returns.
United States Attorney Barbara L. McQuade  said, "Anyone who considers defrauding our schools should take note that  we are scrutinizing records and conduct, and will prosecute those who steal  funds intended to educate our children."
FBI Special Agent in Charge Robert  D. Foley stated, "The FBI would like to thank all of our partners who  continue to assist us in battling corruption.   In particular, I would like to note the continued support of DPS  Inspector General Van Marsh and his team.   The actions of these subjects do nothing more than steal the opportunity  for quality education from our children.   Such actions cannot be tolerated and will be pursued by the FBI and its  partners."
IRS Special Agent in Charge Erick  Martinez stated, "Those who profit at the expense of our children and  steal from our community will be held accountable for their greedy  actions."
The case was investigated by special  agents of the FBI, IRS and Department of Education, Office of Inspector  General, with the assistance of Detroit Public Schools, Office of Inspector  General. The case was investigated and prosecuted by Assistant United States  Attorneys J. Michael Buckley and Bruce Judge of the Public Corruption Unit.
Top
Printable view
Last Modified: 08/08/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov